<html>
<title> - TRANSIT AND RAIL SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                       TRANSIT AND RAIL SECURITY
=======================================================================


                                (110-13)

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                AND THE

                            SUBCOMMITTEE ON
             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-784 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                        PETER A. DeFAZIO, Oregon

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
JUANITA MILLENDER-McDONALD,          THOMAS E. PETRI, Wisconsin
California                           HOWARD COBLE, North Carolina
ELLEN O. TAUSCHER, California        RICHARD H. BAKER, Louisiana
TIM HOLDEN, Pennsylvania             GARY G. MILLER, California
MICHAEL E. CAPUANO, Massachusetts    ROBIN HAYES, North Carolina
JULIA CARSON, Indiana                HENRY E. BROWN, Jr., South 
TIMOTHY H. BISHOP, New York          Carolina
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
BRIAN HIGGINS, New York              TODD RUSSELL PLATTS, Pennsylvania
GRACE F. NAPOLITANO, California      JOHN BOOZMAN, Arkansas
MAZIE K. HIRONO, Hawaii              SHELLEY MOORE CAPITO, West 
JASON ALTMIRE, Pennsylvania          Virginia
TIMOTHY J. WALZ, Minnesota           JIM GERLACH, Pennsylvania
HEATH SHULER, North Carolina         MARIO DIAZ-BALART, Florida
MICHAEL A ARCURI, New York           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  TED POE, Texas
JERRY MCNERNEY, California           DAVID G. REICHERT, Washington
BOB FILNER, California               CHARLES W. BOUSTANY, Jr., 
ELIJAH E. CUMMINGS, Maryland         Louisiana
BRIAN BAIRD, Washington              JEAN SCHMIDT, Ohio
DANIEL LIPINSKI, Illinois            CANDICE S. MILLER, Michigan
DORIS O. MATSUI, California          THELMA D. DRAKE, Virginia
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
ZACHARY T. SPACE, Ohio               VERN BUCHANAN, Florida
BRUCE L. BRALEY, Iowa                JOHN L. MICA, Florida
HARRY E. MITCHELL, Arizona             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
JULIA CARSON, Indiana                WAYNE T. GILCHREST, Maryland
GRACE F. NAPOLITANO, California      STEVEN C. LaTOURETTE, Ohio
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               GARY G. MILLER, California
BRUCE L. BRALEY, Iowa                HENRY E. BROWN, Jr., South 
TIMOTHY J. WALZ, Minnesota           Carolina
NICK J. RAHALL II, West Virginia     TIMOTHY V. JOHNSON, Illinois
PETER A. DeFAZIO, Oregon             TODD RUSSELL PLATTS, Pennsylvania
JERRY F. COSTELLO, Illinois          SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JIM GERLACH, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            LYNN A. WESTMORELND, Georgia
DANIEL LIPINSKI, Illinois            JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                  (iv)

                                CONTENTS

                                                                   Page
Summary of Subject Matter........................................    vi

                               TESTIMONY

Durbin, Marty, Managing Director Of Federal Affairs, American 
  Chemistry Council..............................................    28
Hamberger, Ed, President And Chief Executive Officer, Association 
  Of American Railroads..........................................    28
Millar, William, President, American Public Transit Association..     8
Pantuso, Peter, President And Chief Executive Office, American 
  Bus Association................................................     8
Rabkin, Norman J., Managing Director, Homeland Security And 
  Justice, U.S. Government and Accountability Office.............     8
Siano, Michael, International Executive Vice President, 
  Amalgamated Transit Union......................................     8
Tolman, John P., Vice President And National Legislative 
  Representative, Brotherhood Of Locomotive Engineers And 
  Trainmen, A Division Of The Teamsters Rail Conference..........    28
Weiderhold, Fred, Inspector General, Amtrak......................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    36
Brown, Hon. Corrine, of Florida..................................    37
Cohen, Hon. Steve, of Tennessee..................................    41
Costello, Hon. Jerry F., of Illinois.............................    42
Millender-McDonald, Hon. Juanita, of California..................    44
Oberstar, Hon. James L., of Minnesota............................    48
Tauscher, Hon. Ellen O., of California...........................    54

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Durbin, Martin J.................................................    56
Hamberger, Edward R..............................................    64
Millar, William W................................................    89
Pantuso, Peter J.................................................   100
Rabkin, Norman J.................................................   107
Siano, Michael...................................................   139
Tolman, John P...................................................   150
Weiderhold, Fred E...............................................   160

                       SUBMISSIONS FOR THE RECORD

Hamberger, Ed, President And Chief Executive Officer, Association 
  Of American Railroads, Comments on H.R. 1269...................    86
Millar, William, President, American Public Transit Association:

  Response to questions from Rep. Duncan.........................    96
  Response to questions from Rep. Brown of South Carolina........    98
Pantuso, Peter, President And Chief Executive Office, American 
  Bus Association, response to questions from Rep. DeFazio.......   105
Rabkin, Norman J., Managing Director, Homeland Security And 
  Justice, U.S. Government and Accountability Office, response to 
  questions from Rep. DeFazio....................................   135
Weiderhold, Fred, Inspector General, Amtrak:

  Response to questions from Rep. Duncan.........................   172
  Response to questions from Rep. Brown of South Carolina........   175
[GRAPHIC] [TIFF OMITTED] 34784.001

[GRAPHIC] [TIFF OMITTED] 34784.002

[GRAPHIC] [TIFF OMITTED] 34784.003

[GRAPHIC] [TIFF OMITTED] 34784.004

[GRAPHIC] [TIFF OMITTED] 34784.005

[GRAPHIC] [TIFF OMITTED] 34784.006

[GRAPHIC] [TIFF OMITTED] 34784.007

[GRAPHIC] [TIFF OMITTED] 34784.008

[GRAPHIC] [TIFF OMITTED] 34784.009

[GRAPHIC] [TIFF OMITTED] 34784.010



               JOINT HEARING ON TRANSIT AND RAIL SECURITY

                              ----------                              


                        Wednesday, March 7, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
       Subcommittee on Highways and Transit joint with the 
        Subcommittee on Railroads, Pipelines and Hazardous 
                                                 Materials,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 9:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
DeFazio [chairman of the Subcommittee on Highways and Transit] 
presiding.
    Mr. DeFazio. The Subcommittee will come to order. This is a 
hearing on transit and rail security.
    I have some brief opening remarks. I want to apologize in 
advance since we had to move the hearing up, and I appreciate 
people accommodating that because of the joint address. I have 
something scheduled at 9:30 which I have to do, which is all 
the way over in Cannon. So I will be stepping out for a bit but 
will get back as quickly as I can.
    I have the honor of serving on both the Homeland Security 
Committee and this Committee, so this hearing is a bit 
repetitive for me, but this is a critical issue. We have to do 
better by transit and rail security in this Country. We have 
put a lot of attention and a lot of resources into aviation, 
and yet aviation is still a work in progress, but we have not 
paid adequate attention to transit and rail. Despite the fact 
that we know that perhaps aviation is the preferred target, we 
know that transit and rail are a target and have been a target, 
successfully attacked in other countries, and we need to do 
better to attempt to deter attacks here in the United States.
    Fourteen million people use public transit every day, nine 
and a half billion trips annually. Although we have estimated 
there is about $6 billion in needs, we have invested thus far 
on the Federal level only $136 million, which is obviously much 
less of an effort than we have made in the area of aviation.
    I am pleased to have our panel here today, pleased to have 
members here at this early hour and, with that, I would 
recognize the Ranking Member, Mr. Duncan.
    Mr. Duncan. Well, thank very much, Mr. Chairman, and thank 
you for calling this hearing.
    Shortly after 9/11, the title of the Farm Bill in the House 
that year was changed to the Farm Security Act, and every 
department and agency in the Federal Government was suddenly 
attaching the word, security, to almost all of their requests. 
The Wall Street Journal wrote an editorial around that time, 
and they said, ``Any bill with the word, security, in it should 
get double the public scrutiny and maybe four times the normal 
weight, lest all kinds of bad legislation become law.''
    About a year after 9/11, as I was driving in here one 
morning, I heard on NPR News that the new Department of 
Homeland Security had--they gave some specific figure like 
3,278 or some kind of figure--well over 3,000 ideas for 
security devices that people had submitted around that same 
time that 750 lobbyists had suddenly registered as new 
lobbyists in this industry that had popped up around homeland 
security.
    I support homeland security grants including grants to 
improve security for transit and rail systems if the grants are 
used for activities that actually help protect the traveling 
public and if those activities are carried out in a cost 
effective manner.
    I agree that we haven't exactly rushed to legislate in the 
area of transit and rail security. The Highways and Transit 
Subcommittee has held similar transit security hearings in the 
past in June of 2004 and March of 2006, and this Committee has 
previously reported out, the full Committee has previously 
reported out, authorizing legislation for transit and over the 
road bus security three times.
    As we go down this road once again, I am concerned about 
whether we really have a handle on the costs of these programs. 
There should be an independent assessment of risk-based 
security needs. Not every transit system in the U.S. needs to 
receive a security grant. Not every activity that some agencies 
characterize as security will actually make riders safer.
    I agree that we need to do a better job of protecting the 
transit and rail riding public, but to do that we need better 
security grants management than has been provided thus far by 
the Department of Homeland Security. The Department of 
Transportation, which has the in-depth knowledge of 
transportation programs policy and operations, should manage 
transportation security grants. It is really that simple.
    Just to summarize, I can support a DOT-administered transit 
and rail security grant program that ensures that funds are 
allocated using a fair risk-based methodology with grant 
activities that actually improve security. But before 
supporting an effort, we need to take a closer look at the 
price tag and we need not to just automatically approve 
anything that someone attaches the word, security, to.
    Thank you, Mr. Chairman.
    Mr. DeFazio. With that, this is a joint hearing since it is 
transit and we also have the pleasure of being joined by the 
Subcommittee on Railroads, Pipelines and Hazardous Materials. 
With that, I recognize Chairwoman Brown for an opening 
statement.
    Ms. Brown. First of all, I want to thank Chairman DeFazio 
for joining me in holding this hearing on an issue that hasn't 
gotten the attention it needs and deserves.
    This Sunday will mark the third anniversary of the train 
bombing in Madrid, and we have seen terrorist attacks in London 
and India in each year since. Yet, the Bush Administration has 
done little to protect our Nation's freight rail and public 
transportation system and its millions of passengers. The 
anniversary of this terrible tragedy again raises a serious 
question as to whether we are prepared in this Country for a 
similar attack. Sadly, the answer is no, no. The Federal 
Government has focused most of its attention in enhancing 
security in the airline industry and has largely ignored the 
needs of public transit agencies and railroads. Yet, worldwide, 
more terrorist attacks have occurred on transit and rail 
systems since 9/11 than on airlines.
    In 2006, we dedicated $4.7 billion to the airline industry 
for security while 6,000 public transit agencies and one 
national passenger railroad, Amtrak, had to share a mere $136 
million total for security upgrades. Nothing was provided to 
the 532 freight railroads for security upgrades.
    Fortunately, for the traveling public, the legislation that 
I have introduced with Chairman Oberstar and Chairman DeFazio 
will address the security challenges facing our Nation's 
transit and rail systems. Our bill requires comprehensive 
security plans, strengthened whistleblower protection for 
workers, mandates security training, improves communications 
and intelligence sharing, authorizes a high level of grant 
funding for Amtrak, the freight railroads and public transit 
providers, and provides funds for lifesaving improvements to 
the tunnels in New York, Boston and Washington, D.C. Most 
importantly, it helps make sure our communities, our first 
responders and our transit and rail workers are safe and 
secure, and it does all of this through a coordinated effort 
between the Department of Homeland Security and the Department 
of Transportation, the agent that has the expertise to deal 
with transportation safety issues.
    We are way behind many other countries in protecting our 
transit and rail system, but with the leadership--let me 
repeat--the new leadership in the Congress, we have a plan that 
will protect millions of transit and rail passengers and the 
communities through which freight railroads operate from harm 
while keeping the trains running on time.
    Once again, I want to thank the Chairman for holding this 
joint hearing, and I yield back the balance of time.
    Mr. DeFazio. With that, I would recognize Congressman 
Shuster from Pennsylvania, the Ranking Member on the Railroads 
Subcommittee.
    Mr. Shuster. Thank you, Mr. Chairman.
    I want to thank all of our witnesses for being here today.
    We do need to focus on rail and transit security, but I 
think it is important to also point out that the last six 
years, we have not had an attack, and we need to give great 
credit to our law enforcement and intelligence community for, I 
believe, that record. As we look at our transit system and rail 
system, it is an open system; highway system, open system. We 
are not going to be able to close it off, but we do need to 
focus and find ways to be sure that we are enhancing and 
improving that security. But the best way, as I said, is 
intelligence sharing, intelligence gathering and making sure 
that our law enforcement have the tools available to be able to 
go out and find, arrest and take down these organizations that 
want to do harm to American citizens and our system.
    The rail system in the United States is large, the largest 
in the world, 200,000 miles of track and over 220,000 
employees. With the commuter rail system, we are carrying over 
a million passengers per day. As I said, this is an open 
system. We can't close it, but we again have to find ways to 
improve our security system.
    The railroads in this Country, I think, have done a good 
job of starting off on their own. The Association of American 
Railroads created and funded its own security plan immediately 
after 9/11 and conducted risk analysis of the entire industry 
including train operations, communications and cyber security 
and hazmat transportation. The AAR created a DOD-certified 24/7 
operations center working at the secret level to monitor and 
evaluate intelligence.
    They also created a surface transportation information 
sharing and analysis center operating at a top secret level to 
handle infrastructure and cyber security threats. A railroad 
police officer sits on the FBI's National Joint Terrorism 
Taskforce. Rail analysts with top security clearance sit at DHS 
offices also. As I said, I think they have done a good job of 
the private sector moving forward, making sure they are trying 
to protect this critical infrastructure.
    We in Congress have to join with them and do more, similar 
to what we have done in the aviation industry and make sure 
that we are a partner with industry so that commerce and our 
citizens are safe.
    Again, I want to thank Mr. DeFazio and Chairwoman Brown for 
holding this joint hearing and again welcome all of our 
panelists.
    I yield back.
    Mr. DeFazio. I thank the gentleman.
    We want to move ahead as quickly as possible with the 
witnesses.
    Ms. Matsui, do you have an opening statement, briefly?
    Ms. Matsui. Thank you, Chairman DeFazio and Chairman Brown 
for holding this very important joint hearing.
    Transit and rail security is very important in my district. 
On the outskirts of my district is a Roseville rail yard which 
is the largest switching point of goods west of the 
Mississippi. Any spills or terrorist attacks could cause 
significant damage to business as well as loss of lives. 
Everyday trains arrive in the Roseville rail yard from 
California's busiest ports. Five percent of all cargo 
transported through Roseville has hazardous material and runs 
directly through my district. We really have a keen interest in 
securing this rail yard.
    Additionally, in downtown Sacramento, our transit system is 
making a significant contribution to our city's downtown 
economic development. Part of the reason why our downtown is 
developing is because Sacramento has a growing and vibrant 
public transportation system. As many of us already know, 
transit costs a significant investment in our community and 
neighborhoods. We must protect these investments, and we must 
make sure that the men and women who drive our buses and work 
on our rail lines receive adequate emergency preparedness 
training. They are the eyes and ears of our communities.
    I am really looking forward to hearing from today's 
witnesses, and I truly appreciate Chairman DeFazio and Chairman 
Brown for calling this very important hearing. Thank you.
    Mr. DeFazio. Thank you. Thank you for being succinct.
    Any others?
    We have Mr. Mica, the full Committee Ranking Member here, 
who always has some words of wisdom. Mr. Mica?
    Mr. Mica. Well, thank you. I did want to come this morning 
because I think this is an important hearing, and I think it 
also is going to set the tone for what we do in Congress in a 
very important area. We are talking about increasing the amount 
of funds we are going to spend in this area pretty 
dramatically. So what we do is important that it is effective.
    First of all, I think transit systems and railroads are 
particularly vulnerable to attack because they have open 
access. We just heard our Ranking Member mention that we have 
an open society and we have areas where there are large 
concentrations of people that use a public transit system. In 
any open society, it is almost impossible to protect everyone 
for every instance and every potential threat. But the threat 
to transit and rail security systems is very real, although 
again it is almost impossible to protect us against every 
potential attack.
    However, there are some things that we can do to assist 
transportation providers respond effectively to attacks and 
help our first responders. The most effective way to prevent 
terrorism is not by what we are going to discuss here today, 
but it is, as we have found, to penetrate the organization, the 
finance and communications of terrorist organizations. Most of 
what Congress has done has been to curtail, impede or limit law 
enforcement's and intelligence agencies' ability to obtain that 
information I just talked about or penetrate these 
organizations, and in fact that is probably our most effective 
use of dollars, going after those organizations and stopping 
the attack.
    Thus far, I have not seen much evidence that security 
grants administered by the Department of Homeland Security are 
particularly effective. In fact, there have been some examples 
of serious mismanagement of some of the grants under DHS 
programs such as the Urban Area Security Initiative and the 
Homeland Security grant program.
    Let me just cite a few of those examples. One was $160,000 
grant to Montgomery County, Maryland, to buy eight large screen 
plasma TVs. They probably should have waited. The price has 
gone down dramatically.
    [Laughter.]
    Mr. Mica. A $3,000 grant to Converse, Texas, to buy a 
secure trailer to transport lawnmowers to the annual lawnmower 
drag race; a $100,000 grant to the Washington, D.C. Department 
of Public Works to pay for sanitation workers to attend a Dale 
Carnegie management and public speaking session. Now these are 
some egregious violations, and we cannot allow security grants 
that we create to go for frivolous activities like these.
    I believe that transit and rail security grants should be 
focused on activities that really can make a difference. First 
of all, better communications, systems that are interoperable--
right now, we have inoperable systems, but we need 
interoperable systems with our emergency responders--increased 
monitoring of rail and transit stations and other facilities, 
and basic security training for front line transit and rail 
workers.
    With 170,000 employees in DHS with responsibility over some 
20 agencies, I don't believe that DHS is the best place and 
doesn't particularly have the best expertise or track record in 
grants management or in transit and rail policy operations to 
effectively manage, again, what we are talking about here 
today. If we are going to have transit and rail security 
grants, I would urge both sides of the aisle to consider having 
those grants managed by the Department of Transportation.
    The DHS transit and rail security program has averaged 
about $135 million a year for the past couple of years, and I 
have seen proposed legislation that authorized $1.5 billion a 
year for the same activities. It remains to be seen if this 
level of funding is justified. However, we need a risk-based 
estimate for transit and rail security needs that has been 
conducted in a disciplined manner and independently validated. 
Without it, we are flying blind because again we are an open 
society.
    Any terrorist, in fact, even a lame-brained terrorist could 
with little imagination take down our tunnels, our critical 
infrastructure, our subways, attack our transit systems, 
regardless of any grants or measures that Congress will adopt. 
Remember that. They can do that, no matter what you are going 
to adopt here today.
    We had a chance, I don't know. You didn't go on that one, 
did you, when we went to London a few months before the London 
attack and we saw what they put in place? They spent quite a 
bit of money, and they had one of the most sophisticated 
systems. Ms. Brown went. But all they could do--and they had 
the attack afterwards--all they could do when they had people 
who were determined to take down their transit system, was to 
obtain surveillance tapes. It did help them unravel the case. 
It is impossible to stop that type of action.
    If you look at London and Madrid, London had suicide 
bombers intent on taking them down. Anything that you provide 
in these grants will not do that. It might help you find them 
after the fact. In Madrid, you had backpacks and cell phones, 
again, almost impossible to eliminate backpacks and cell phones 
for all your people that access transit.
    So, again, we have to think how we are going to spend these 
dollars, that we spend them wisely. We put them in responsible 
hands and that they do the best in addressing potential risks.
    Sorry to take so much time, but I came this morning because 
this is a very important topic, and the money we spend and the 
programs we devise need to be very sound. Thank you.
    Ms. Brown. Mr. Chairman, can I ask the Ranking Member a 
quick question, 30 seconds?
    Mr. DeFazio. You know we are going to try and get done by 
11:00, and we have two panels, but if the gentlelady has an 
urgent need.
    Ms. Brown. Yes, just quickly, first of all, I want you to 
know that as far as the grants going to the Department of 
Transportation, without objection.
    Secondly, I was with you when we went to London, and I 
think it is very important. They were not able to stop the 
bombing, but one of the things is, as you said, they were able 
to identify within days who bombed the trains, and we don't 
have that capacity as we sit here and speak.
    Mr. DeFazio. I thank the gentlelady for her comment.
    Again, we are trying to get in two panels by 11:00.
    I urge members to submit opening statements for the record, 
but Ms. Napolitano wishes to be recognized.
    Ms. Napolitano. Thank you, Mr. Chair.
    I associate myself with the remarks of my colleagues. I, 
too, am very concerned about the level of security along the 
railroads since the Alameda Corridor East in Los Angeles, the 
whole quarter runs through my district. It has more than 150 
trains through there a day, probably 15, 20,000 contains or 
upwards. A lot of them contain hazardous material, and there 
are two million people in that area that just live along that 
one corridor. I have no open space. Streets define cities, so I 
am extremely populated. When there are 54 rail crossings, which 
makes it an even worse scenario for some kind of derailment, I 
still contend that the railroads should work with us, with the 
Nation to ensure the safety and security.
    I know there is an issue with the hazmat placarding. We 
need to address that. We need to address the security of the 
employees and the people that we traverse through. Of course, 
we have got to ensure that we have a good training program for 
your employees who will then deliver the goods intact.
    With that, thank you, Mr. Chair. That is my two bits.
    Mr. Duncan. I have just been told there is no one else on 
our side that wishes to make an opening statement, is that 
correct?
    All right, thank you.
    Ms. Brown. [Presiding] Thank you.
    Are there any other opening statements on our side?
    Okay, we will proceed with the first panel.
    Mr. Norman Rabkin with Homeland Security and Justice, U.S. 
Government Accountability Office, Managing Director, 
Washington, D.C., welcome.
    Mr. William Millar, American Public Transit Association, 
President, welcome.
    Mr. Peter Pantuso, American Bus Association, we really 
haven't done anything in that area, and Mr. Fred Weiderhold, 
Amtrak Inspector General and Michael Siano, the Amalgamated 
Transit Union International Executive Vice President, welcome 
to the Committee, and you can straighten out your names as you 
go forward.

  TESTIMONY OF NORMAN J. RABKIN, MANAGING DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE, U.S. GOVERNMENT AND ACCOUNTABILITY 
  OFFICE; WILLIAM MILLAR, PRESIDENT, AMERICAN PUBLIC TRANSIT 
   ASSOCIATION; PETER PANTUSO, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICE, AMERICAN BUS ASSOCIATION; FRED WEIDERHOLD, INSPECTOR 
 GENERAL, AMTRAK; MICHAEL SIANO, INTERNATIONAL EXECUTIVE VICE 
             PRESIDENT, AMALGAMATED TRANSIT UNION.

    Mr. Rabkin. Thank you, Ms. Brown. I am Norm Rabkin with the 
GAO, the Government Accountability Office.
    Ms. Brown, Mr. Duncan, Mr. Shuster, Mr. Mica, members of 
the Subcommittees, thank you for the opportunity to participate 
in this discussion on the security of the Nation's 
transportation systems.
    In September, 2005, we reported on the efforts to secure 
the Nation's passage of rails systems. We have recently 
initiated work on the security of commercial vehicles and 
freight rail and will soon initiate a review of highway 
infrastructure and will follow up on our report on the 
passenger rail system.
    The decisions on how to secure surface transportation 
systems, what should be done, where it should be done, who 
should do it, how much should it cost, who should maintain it, 
all need to be made in the context of the fact that the Country 
cannot sustain the current fiscal policy. The Comptroller 
General has been telling the Congress and the Country that 
among the solutions to this impending crisis is strengthening 
the Federal budget and legislative processes and controls. 
Today, as we talk about investing hundreds of millions of 
additional Federal dollars, perhaps even billions of dollars, 
in needed security for surface transportation systems, we need 
to keep in mind that resources are limited and that there are 
many other worthy claims on each dollar. In this light, it is 
very important that Congress, the Administration and the other 
stakeholders in this process be in agreement with the national 
strategy for securing the passenger rail system as well as the 
rest of the transportation sector.
    The problem, of course, is that there is no national 
strategy to agree to. DHS has not fully met the expectations of 
Congress and the President. DHS has not yet issued its 
transportation sector-specific plan and supporting plans which 
are to identify their TSA strategy for securing all 
transportation modes including passenger rail. These plans are 
important for establishing and clearly communicating the roles 
and responsibilities of all transportation stakeholders. They 
also provide a basis for DHS to allocate limited resources 
among competing demands.
    Regarding risk assessments, both DHS and DOT have completed 
numerous risk assessments of passenger rail systems around the 
Country and have provided technical assistance and training to 
rail operators to help them assess the risks that they face. 
DHS has also begun to develop an overall framework to help 
agencies in the private sector develop a consistent approach 
for analyzing and comparing risks to transportation and other 
sectors. However, although progress has been made, these risk 
assessment efforts have not yet been completed or fully 
coordinated. Until they are, it will be difficult to compare 
risks within the rail sector and across the different sectors 
and to allocate resources accordingly.
    Regarding Federal actions after the 9/11 attacks, the 
Transportation Department took a number of efforts to 
strengthen the security of rail systems including providing 
security training and technical assistance to rail operators. 
DHS has issued security directives, piloted explosive detection 
technology for use in the rail system and recently issued a 
proposed rule addressing passenger freight rail security. DHS 
has also provided hundreds of millions of dollars to help 
enhance rail security through several grant programs, and its 
fiscal year 2008 request for the transit security grant program 
is $175 million.
    Although not all of these activities have been well 
coordinated or well received, they have enabled system 
operators to implement programs to better protect their systems 
and their passengers against terrorist attacks and to be better 
prepared to recover from any attacks that occur.
    Finally, DHS and DOT have signed a memorandum of 
understanding, and their relevant components have agreed to 
specific annexes that delineate roles and responsibilities 
regarding passenger and freight rail security. We have not yet 
examined how DHS and DOT are implementing these agreements but 
plan to do so this year.
    In summary, we are encouraged by the increased Federal 
focus on the security of surface transportation modes. A clear 
strategy, strong Federal coordination and continued leadership 
from the Congress, DHS and DOT will be needed to help ensure 
that actions and investments are designed to enhance security 
and are appropriately focused and prioritized.
    Madam Chairwoman, this concludes my opening statement. I 
will be prepared to answer questions at the appropriate time.
    Ms. Brown. Thank you.
    Mr. Millar. Chairwoman Brown, Mr. Oberstar, Mr. Mica, Mr. 
Duncan, Mr. Shuster and all the members of the Committee, thank 
you so much for inviting us to be with you today.
    I am William Millar. I am the President of the American 
Public Transportation Association and, on behalf of our 1,500 
members, we are pleased to be testified on the Rail and Public 
Transportation Act of 2007, H.R. 1269. We appreciate that you 
have made the security of the tens of millions of Americans who 
use public transit every day and the hundreds and thousands of 
workers who work in our industry, make their security a high 
priority, and we look forward to working with you as you move 
to complete this bill.
    As Mr. Duncan said, this Committee has acted on several 
other occasions in these areas. Unfortunately, the rest of the 
Congress has not seen fit to go forward. I hope this is our 
time when the train pulls out of the station and makes it 
successfully to its destination.
    Now today is a weekday and, as a weekday, 34 million times, 
Americans will board public transportation vehicles. That 
compares with less than two million times that they will board 
the Nation's airlines. So you can see it is an important part 
of our transportation network and one that is heavily used.
    Unfortunately, security has been a priority with our 
industry for many years, long before that fateful day in 
September of 2001 because, as our friends from the GAO have 
reported on several occasions, public transit is among the most 
frequent target of terrorist activity around the world. We have 
stepped up our activities since September 11th, and transit 
systems have spent more than $2.5 billion out of their own 
budgets with only a pittance of Federal assistance to encourage 
the development of better security. We can do more, we should 
do more, and we urge the Congress to increase Federal 
investment in transit security.
    Our industry has identified some 6 billion worth of needs 
that ought to be done to improve security. Some of these are 
very complex. Some of them are very simple: capital investments 
such as interoperable radio systems and communications systems, 
more security cameras, automatic vehicle locator systems and 
simple things like better fencing and protection at the 
facilities where our employees work. We also need investment in 
so-called soft costs such as better law enforcement, overtime 
costs, extra security, more extensive training of workers, to 
just name a few of these.
    We also ask that the Congress provide funds to sustain an 
increase of the very successful Transit Security Standards 
program that our organization has developed in cooperation with 
DHS and DOT. We also urge the Congress to provide a funding 
mechanism for the Public Transit Information Analysis Center, 
the so-called ISAC, which allows effective communication of 
important intelligence information with public transit systems 
across the Country, also, interestingly enough, allows reverse 
communication back to DHS so that they can be aware of what is 
going on in the field. These are common sense improvements that 
should be made and should be funded by the Federal Government 
as part of the larger war on terrorism.
    Now let me turn to the specifics of the Rail and Public 
Transportation Security Act. We strongly support the proposed 
$3.36 billion that would be invested over a three year period 
under this bill. It would go a long way in plugging some of the 
holes that I have outlined here. We appreciate that the bill is 
designed to cover both some of the operational costs and 
capital costs that I have referred to.
    We do want to encourage the Congress to allow flexibility. 
Needs vary substantially, different cities, different transit 
agencies. Large rail systems may have different needs than 
large bus systems. Both have different needs than commuter rail 
systems have. We need some level of flexibility in how they are 
implemented.
    We strongly support the notion of coordination between the 
Department of Homeland Security and the Department of 
Transportation as envisioned in this bill. We are very pleased 
that the bill and, from what I can take, the members' opening 
statements, that there is strong support to make sure that the 
grant-making mechanisms of the Federal Transit Administration 
are used to make sure that whatever money the Congress makes 
available is distributed quickly, fairly and that the 
appropriate checks and balances, the audit and all those things 
that are required are in place and should be used, and we do 
appreciate this Committee's recognition of that.
    While there are many things to like in this bill, it won't 
surprise you that there are a couple of things that we have 
some concerns about. The bill, as we understand was originally 
drafted, requires a local match. We can see no possible 
justification for a local match in a national security issue. 
We do wonder what 500 additional rail inspectors, many of whom 
do not understand the transit operating environment, will do. 
We worry about the negative impact of potential civil and 
criminal penalties on public employees.
    We want to be sure that the grant funds are delivered 
quickly and properly and spent right. We think by running it 
through the Department of Transportation, using their existing 
mechanisms, is adequate protection.
    I see my light is blinking, and I could go on and on. So 
let me just summarize by saying thank you very much. We 
appreciate the strong position you have taken and look forward 
to working with you in the enactment and administration of this 
bill.
    Thank you, Madam Chair.
    Ms. Brown. Mr. Pantuso?
    Mr. Pantuso. Yes, thank you, my thanks to the Committee.
    My name is Pete Pantuso. I am the CEO of the American Bus 
Association. We appreciate your scheduling this hearing. We 
also appreciate your consideration of H.R. 1269, the Rail and 
Public Transportation Security Act of 2007.
    The American Bus Association and our members take very 
seriously the security of our passengers, our equipment, our 
facilities and our personnel, and we will greatly be aided in 
the efforts to protect our industry and our 650 million 
passengers with further security funding.
    In the time I have today, I would like to accomplish a 
couple of things: number one, to tell you about the ABA 
membership, who we are, what we do and what our interests are 
in transportation and in security; second, detail the efforts 
that ABA and its members have undertaken in security since 9/
11; and third, give you ABA's view of H.R. 1269 and its 
provisions.
    The American Bus Association is the primary trade 
association representing the private over the road bus industry 
as well as thousands of tourism attractions and icons in places 
like Washington, D.C., New York City, Oklahoma City and every 
city throughout the Country. As I mentioned, the private bus 
industry transports approximately 650 million passengers every 
year, a total that compares favorably with the number of 
passengers carried by the Nation's airlines. Moreover, ABA 
members link some 4,000 communities across the Country.
    The difference between the private bus industry and 
airlines is that bus operators are in every community. They are 
small mom and pop businesses. They operate with little or no 
Federal, state or local subsidy. As the Federal Government 
continues to fund, and well deservedly, the airlines from 
terrorist attacks, funds should also be provided to the private 
bus industry who similarly move hundreds of millions of 
passengers and whose funding mechanisms have been lacking from 
this Congress. Indeed, the private bus industry's minimal 
security funding has been limited to modest amounts through the 
appropriations process, typically averaging less than $10 
million per year since 9/11 and typically overseen by the 
Department of Homeland Security. For fiscal year 2007, for 
example, the Department of Homeland Security has divided the 
funding mechanism into two tiers, the larger share of resources 
only available for larger companies. In fact, only four 
companies have received approximately 80 percent of the limited 
amount of funding in current fiscal year 2007.
    ABA's operators have made effective use of past funds, 
limited though they were, and operators priorities are 
certainly training and threat assessment, threat recognition, 
crisis management. They have also identified that in the 
future, they need equipment. They need emergency phones, GPS 
devices and other communications systems that will link them to 
first responders. They need driver shields. They need cameras 
in bus facilities and cameras on board buses and in staging 
areas--all equipment necessary to protect the passengers that 
they move. That is why the funds provided by the Rail and 
Public Transportation Security Act are so necessary. When the 
average ABA member has five to eight motor coaches, the 
industry lacks the wherewithal to support even modest security 
enhancements without Federal funding.
    ABA did help develop a training program for bus industry 
personnel in 2003 and 2007 with the help of DHS funding. That 
program trained personnel in threat assessment, threat 
recognition, crisis management. It trained security and safety 
directors of bus companies and had them go back and train other 
employees. The ABA distributed security training materials, 
instructional CDs, provided information on a security web site, 
all of which was available to assist the private industry. We 
trained hundreds of individuals. We trained 700 companies out 
of a total of 3,500 companies. But despite those promising 
results, that program has been halted because of a lack of DHS 
funding for the future.
    With all I have said, it should be clear that the American 
Bus Association and its members support H.R. 1269. The bill 
authorizes $87 million over 4 years for bus security grants for 
the private industry. While the increase in bus security funds 
is certainly appreciated, equally important is Section 9 of the 
bill which details the use of the funding for construction, for 
modifying terminals, for protecting drivers, for installing 
cameras and video surveillance systems, for establishing and 
improving emergency communications and for passenger screening 
where appropriate. Subsection C allows private operators who 
are eligible for grants to receive those grants from the 
department with consultation from the Department of 
Transportation, and we think that is critically important.
    There are other provisions of the bill that we are very, 
very happy with and, as Mr. Millar pointed out, there are some 
things that we would like to see changed.
    But, in conclusion, we want to offer our thanks for your 
considering this bill and putting this bill together. We hope 
that it will receive favorable consideration from the full 
House at the earliest opportunity, and the ABA looks forward to 
working with both Committees and the Chairmen and Ranking 
Members from both Committees to make sure that security for the 
private over the road bus industry is top of mind.
    Thank you for your assistance.
    Ms. Brown. Thank you.
    Mr. Weiderhold. Thank you, Madam Chairman and members of 
the Committee.
    The Rail and Public Transportation Security Act, H.R. 1269, 
is a significant piece of legislation, probably the most 
important legislation affecting rail and transit security since 
9/11. I thank you, just as Mr. Millar and others on this panel 
have thanked you, for listening to the passenger rail community 
and for working with the DHS committee in moving this 
legislation forward. I know that there were some missed 
opportunities in the Congress, and I thank you for those 
efforts as well.
    I want to be the first witness who tells you that you 
cannot act quickly enough. Madrid, London, Mumbai are wakeup 
calls. In using that metaphor, I think some people have just 
pushed the snooze alarm. We need to wake up. We do not have the 
time that we think we have to address these serious problems.
    I cannot and will not tell you that the passenger rail 
sector is fully prepared. It is not. Certainly, in locations 
like New York City, very much to the credit of Commissioner Ray 
Kelly and others, we have made inroads. We have made real 
progress, and progress has been made in substantive pockets in 
other areas of transit and the freight side, but I cannot say 
the same is true for all of the critical properties used by 
Amtrak. We do not have enough K-9 units at our stations, we do 
not have police and security on our trains, and we have not put 
into place many of the physical countermeasures that our 
vulnerability assessments have concluded are needed.
    Amtrak plans to do more. This does not mean that we do not 
know what to do.
    I think to Mr. Duncan's and Mr. Mica's comments, if after 
five years, gentlemen, we don't know what to do and we are not 
smart about how we invest that money, then shame on us. I think 
we can learn a lot from what was done correctly and what was 
done incorrectly on the aviation side. You cannot pick up a lot 
of what has been done in aviation and move it over to our open 
system, but there are lessons learned there, and I think we can 
be very smart about the money that would be authorized for rail 
and transit security.
    I would also urge you to find a way to exact the best kind 
of cooperation between DHS and DOT to get the real synergisms. 
I know that is not an easy task. The simple fact is that 
passenger rail and transit have familiarity with the grand 
processes and regulatory and safety oversight roles played by 
DOT. There is a comfort level there.
    The sector's experiences with DHS, quite frankly, are mixed 
partly because of the newness of the Department, the 
reorganizations of the Department. I don't know what iteration 
we are on right now, but when you meet with a lot of DHS folks, 
they don't have business cards that have their current title 
and organization. This does mean that they are not good people. 
This means they are trying to hang in and do a difficult job 
under difficult circumstances.
    Also, TSA traditionally has been aviation-centric. In the 
early days after Madrid when I went over and met with DHS and 
TSA representatives to hammer together the security directives, 
I met with people from the aviation sector and from the Coast 
Guard. There was no one present from the rail business and, at 
that time, they did not know our business well.
    With respect to the specific provisions of the bill, I want 
to highlight just a couple of points from my written testimony. 
First, in Section 4 with respect to the risk tiers, again to 
the members' comments, you cannot cover all the bases; you 
should not try to cover all the bases. You need to assign those 
risk tiers that are out there. The language you have in the 
bill right now refers to providers, and I would recommend to 
you strongly that you also look to critical assets or systems.
    You look at a station like Washington, Union Station over 
here, which is probably in everybody's target folder, high 
iconic value in the shadow of the Capitol. Yet, we have a 
station that if you just assign vulnerability, if you just 
require vulnerability assessments and risks on a provider 
basis, you have got Virginia Railway Express, you have got the 
MARC trains, you have got Amtrak, you have got WMATA that would 
be coming in--of which, what is their status? How would they be 
prioritized? It would be far better to prioritize that station, 
that locale as an intermodal point that needs to be 
prioritized.
    The other thing I would recommend is that you ought to 
mandate linkage between vulnerability and security plans 
between and among providers. Amtrak shares property with 23 
different transit organizations across the Country, and yet in 
none of those plans are the security plans and vulnerability 
assessments linked together. That is an oversight, and that 
needs to be fixed.
    With respect to Section 7 of the bill, the rail security 
assistance, most of you know that Amtrak has received $22 
million from DHS over the last three years. I think this bill 
goes a long way in allowing Amtrak the opportunity to have 
access to a far greater amount of funds, and I want to give you 
my assurances from an IG perspective that we will do everything 
we can to protect those funds.
    Section 10, fire and life safety, most of you know that we 
have a large fire and life safety project underway in New York 
City. If you have not been up here to see it, I would invite 
you to come see it because it will show you what we can do with 
those monies. It is extremely important to protect those 
tunnels.
    I see my time is up.
    Madam Chair, I appreciate the opportunity to testify today, 
and I am ready for your questions.
    Ms. Brown. Thank you. We do have questions for you.
    Mr. Siano, welcome.
    Mr. Siano. Chairman DeFazio, Chairwoman Brown and Ranking 
Members Duncan and Shuster and members of the Committee, on 
behalf of more than 180,000 members of the Amalgamated Transit 
Union, I want to thank you for giving me the opportunity to 
testify today. I also want to applaud this Committee's 
continuing focus on this important and urgent issue.
    The issue of transportation security is one that our 
members are confronted with on a daily basis. As vehicle 
operators and mechanics, our members are responsible for 
protection, safety and security of not only themselves but also 
their passengers. This is an awesome responsibility and one our 
members are ready to live up to so long as they are provided 
with the tools and training necessary to equip them to prevent 
or, if necessary, respond to terrorist or other emergency 
incidents.
    Faced with the reality of terrorist attacks against public 
transportation, the ATU has, for years, worked to raise 
awareness of our members and their employers to this danger and 
to advance real concerted solutions and initiatives to enhance 
the safety and security of the systems operated and maintained 
by ATU members. We strongly believe that the labor community 
must be a part in any effort to address the security threats 
facings our industry.
    For that reason, we have worked with our members, the 
transit and bus industries and officials in all levels of 
Government including many members of this Committee. The 
transit and over the road bus industries have taken admirable 
steps toward securing their operations, but due in a large part 
to funding constraints, they have not gone far enough. The 
reality is that these industries and the ATU cannot do this 
alone. The Federal Government must step up to the plate and 
provide the necessary funding, guidance and even mandates to 
provide the level of security that transit and over the road 
bus passengers and employees deserve.
    On the issue on funding, the ATU supports the figures 
presented by Mr. Millar in his written statement to the 
Committee. In addition, we join our partners at APTA in urging 
the Committee to reconsider the issues of matching funds for 
transit or over the road bus security grants.
    I would like to focus my comments today on another aspect 
of security which my members consider to be the most important 
thing that we can do to enhance the security of our public 
transportation system, front line employee training. While we 
should not abandon research and development, the new 
technologies we need to recognize that have been proven to be 
the most cost effective security measures is employee training. 
Each and very front line transit employee, including rail and 
bus operators, customer service personnel and maintenance 
employees, must receive security and emergency preparedness and 
response training. Security experts, Government officials and 
transit and over the road bus industry officials have all 
agreed that training is the most essential element on an 
effective security regime.
    In fact, just last week, the TSA Office of Grants and 
Training issued a bulletin which highlighted the importance of 
annual front line employee training and announced that the 
decision of the Agency to elevated priority to applications for 
grants for security training. We are pleased that the Agency 
has recognized the importance of training. Experience tells us 
that without the adequate funding and mandates, the necessary 
training will not be provided.
    The National Transit Institute which is funded by the 
Federal Transportation Administration has developed numerous 
mode and employee-specific training programs that have been 
widely approved and tested by union, industry and Government 
officials. Unfortunately, these programs, which are available 
free of charge to any U.S. transit agency, have only been 
provided to less than a quarter of our Nation's transit 
employees. Unfortunately, transit systems continue to resist 
calls for training because of the operating costs to pay 
employees and keep the buses and trains running during training 
sessions. It is time for the Federal Government to step in and 
provide funding for the operating costs associated with 
training and to further require all transit systems to train 
all front line employees.
    I want to applaud the members and leaders of this Committee 
for recognizing the need for Federal Government action in this 
realm. The recent introduction of the Rail and Public 
Transportation Security Act of 2007 as well as legislation 
passed by this Committee in the previous session will go a long 
way towards addressing the needs of our Nation's transit 
systems and their employees. Not only will this legislation 
provide significant funding resources directly to transit 
agencies and over the road bus companies for crucial capital 
enhancements, but it also recognizes the need for training by 
requiring that all front line employees receive the necessary 
training.
    The bill will further require consultation with employees 
and representatives in the development and implementation of 
security priorities and measures. The ATU is very supportive of 
these provisions.
    I thank you again for the opportunity to testify today on 
behalf of the ATU. I cannot stress enough how important it is 
to include the input of transportation labor in this 
discussion. It is our members who are on the front line of 
these battles and who know best what dangers they face every 
day on the job. I appreciate your recognition of this fact and 
look forward to working with you to address the important 
issues raised here today, and I would be happy to answer any 
questions that you may have. Thank you.
    Ms. Brown. Thank you and thank all of the panelists.
    Now we will go to the Chairman of the Committee, Mr. 
Oberstar, for his opening remarks or comments or begin the 
questioning.
    Mr. Oberstar. Thank you, Madam Chair. Thank you and Mr. 
DeFazio for laying the groundwork for this hearing and working 
together cooperatively and for the Ranking Members as well 
participating in what is a very critical subject matter for us, 
transit security and rail security.
    I have a statement which I will submit for the record.
    Mr. Siano, you really touched a sensitive chord. Your 
members are front line. We need your thoughts and suggestions 
as you speak for those who are the first ones to be struck when 
terrorism hits us wherever, in the Heartland, in the air, on 
the ground, on the waterways.
    In fact, just last week as I was participating in an Amtrak 
conference in Philadelphia and talking with the engineer on the 
Acela, discussing security issues, what do you see as a 
locomotive engineer, things that are a concern to you. I got an 
earful from one of your members or one of your brothers in 
Transportation. One of those concerns was fencing. Mr. Millar 
and other members, yes, we do need to put fencing up. It is an 
obvious deterrent. But that, in and of itself, is insufficient.
    I don't want to go into it, but we looked at fencing on 
port security, for example, and putting miles and miles of 
fencing around the Nation's ports and how quickly they can be 
penetrated. It is an obvious deterrent, sure.
    In Northern Minnesota, in my district at airports, there 
are fences put up, several miles of fences around those rural 
airports, and they keep out the deer and the timber wolves, a 
really good job with that, but I think a determined terrorist 
could get through those things very quickly.
    So what supplementary, what overriding types of security do 
your members need? Your transit agencies are on the front line. 
Siano's members are running the buses and the transit vehicles, 
and they see it first hand. What additional do you need?
    Mr. Weiderhold. Thank you, Mr. Chairman, and I appreciate 
your comments and understanding very much.
    We completely agree it is a whole series of things that 
need to be done. Certainly, it starts with the employees and 
the management and having a good plan and educating all at the 
authority as well as the law enforcement and the first 
responders in the area as to what that plan is and what is 
needed.
    Second, it is physical things. Sometimes it is simple, like 
fencing, but it is not just fencing. It is then making sure 
there are proper cameras and things that can watch that 
perimeter. It is making sure that our vehicles can be tracked 
and located. We now have very sophisticated technology 
available to us, but many transit systems can't afford it, 
automated vehicle locations, things of that sort.
    For our larger members who operate extremely sophisticated 
facilities such as extensive systems of tunnels, it is making 
sure about what is called intrusion detection systems that are 
up to date. It is making sure that the chemical and biological 
detection systems are developed for our industry and deployed 
as appropriate in the number of places that are there.
    It also about working with our customers. Along with our 
employees, they are the people who are going to see what is 
going to happen first. So making sure that we have proper 
outreach to our customers, that they know what to do if they 
see something out of place, on and on.
    Mr. Oberstar. I am going to interrupt you there. That is an 
excellent catalogue, if you will--training, surveillance, 
tracking of transit vehicles, intrusion detection systems and 
passenger awareness, if you will.
    Mr. Weiderhold. Yes, sir.
    Mr. Oberstar. May I ask the GAO representative, Mr. Rabkin, 
your reaction to that, just very briefly, very quickly, your 
response to those, to that catalogue, if you will?
    Mr. Rabkin. I think that an integrated approach to rail and 
transit safety is certainly called for. I think it all starts 
with coordination and the Federal Government taking the 
leadership. I think Congress has already spoken on that, and 
the President, the Administration also. The DHS has the 
leadership. They ought to come out with their strategies of how 
the various sectors ought to work together, what are the 
principles of security, and then industry and the Federal 
Government can take it from there.
    I think there has got to be some discussion of balance and, 
as I said earlier, who is going to pay what for what kind of 
investments, both capital and operating. Once those decisions 
are made, I think that applying the security needs at the local 
level on a risk-based approach can be done. It can be done a 
lot more easily.
    Mr. Oberstar. Mr. Pantuso, do you think the DOT and DHS are 
applying best industry practices to security as to your 
members?
    Mr. Pantuso. In the case of our members, sir, no, 
absolutely not. Each one of our members are, for the most part, 
very small business people. They are all very different in 
terms of the types of services that they offer. There is very 
little opportunity for them outside of some limited DHS funds 
and what we have done to access training, to access threat 
awareness, to put together a plan, to understand what the 
assessment needs to be . The fact that we have only trained a 
few thousand people out of 150,000 employees is a problem in 
our industry.
    The biggest challenge I think that we have, that I think 
DHS and DOT haven't been able to overcome so far is 
coordination between the two organizations and with other 
modes. I have testified before your Committee, Mr. Oberstar. 
For example, FTA in working with Mr. Millar's members have a 
tremendous amount of information and resources and training 
materials. Since we are very similar systems, we are open door 
bus systems, if some of that could even be shared with those 
that we work with DHS, that would be a big step in the right 
direction.
    Mr. Oberstar. Amtrak could certainly use metal detectors at 
check points and entry points, not as extensive as for aviation 
but certainly they could use some of the aviation technology, 
Mr. Weiderhold.
    Mr. Weiderhold. I think there is some opportunity. We, 
obviously, have had a couple of tests of those types of 
equipment on our properties and found for the most part that 
they really can't handle all of the volumetric flow that we 
have going into the stations at certain times, but I would say 
during periods of heightened threat alert or if there has been 
an attack that is close to home, then yes, something must be 
done around screening, absolutely.
    Mr. Oberstar. And intrusion detection systems as well?
    Mr. Weiderhold. Well, I can tell you tunnels have come up 
several times this morning, and I share the concern in and 
around tunnels, especially tunnels underwater. As an IG, I go 
out and I try to look for best practices because a lot of the 
way we evaluate how well the company is performing is we want 
to look at what the best practice is and do a gap analysis 
around that best practice. I can tell you that there is no 
standard for best practices for tunnels.
    As an engineer, I can tell you that a lot of these tunnels 
that were built into the 19th Century were what we call built 
to last. They were built with granite. You go to the Baltimore 
Potomac tunnel, the First Street tunnel, trust me, those things 
are very substantial. If you go to the underwater tunnels in 
New York in the Hudson and East Rivers, those are cut and fill 
tunnels. They have greater vulnerabilities. We are very 
concerned about that, and we are trying to do things to 
mitigate that exposure, but we need intrusion detection.
    You also need, if you have someone coming in, you need to 
take that person down, and we are looking at means and methods 
to do that too.
    Mr. Oberstar. Thank you.
    My last question, Mr. Millar and I think other members as 
well, one of the issues we are going to face as we move into 
the legislation, as we move the legislation forward between our 
Committee and the Homeland Security Committee, is grant 
administration. Your experience has been that DOT has computer 
software to track and monitor the flow of dollars and to 
prioritize needs. On the other hand, Homeland Security has had 
four separate offices that they shifted in the course. That is 
really extraordinary in such a short lifetime of this agency, 
to have changed the servicing of transit agencies with these 
security grants.
    Your very firm recommendation, would that be concurred by 
others, that the grant administration be run through the 
Department of Transportation?
    Mr. Millar. Yes, sir, that is. I mean the policy should be 
set by the Congress. If the judgment of the Congress is to 
centralize it at DHS, that is fine, but let us use the other 
resources of the Government. The Federal Transit Administration 
has been giving out grants for 40 years. They have a well 
developed system. They have a system of checks and balances. 
They have, after the grant has been made, the ability for audit 
systems, things of that sort. Why not make use of what works?
    DHS, as you said, four different arrangements in five 
different years, there are still grants from 2004 that haven't 
yet been fully utilized because the rules keep changing, a very 
difficult, complicated process.
    Mr. Oberstar. Mr. Pantuso, do you have a comment to make?
    Mr. Pantuso. No. We would agree very much with what Mr. 
Millar said. Obviously, the system isn't working right now. To 
the extent that moving it somewhere else or at least better 
coordination between the two departments will help tremendously 
in our own members' efforts.
    Mr. Oberstar. Mr. Weiderhold, do you have any comments?
    Mr. Weiderhold. In my oral testimony, Mr. Oberstar, I 
pointed out that there is a lot of familiarity with passenger 
rail and transit with DOT and some comfort level that exists on 
that plane. It is a tough call because clearly DHS is here and 
DHS has certainly, I would call it, security policy drivers in 
this organization. But with a gun to my head, this is like 
asking a child of divorced parents, who do you like more, mommy 
or daddy; we have to live with both of them. It is a tough 
question.
    [Laughter.]
    Mr. Oberstar. Thank you very much.
    My time is well beyond the point, and I am grateful, Madam 
Chair, for this time, and thank you very much, Mr. Shuster and 
Mr. Duncan also for your corresponding participation in these 
areas and your work in the past Congress on these subject 
matters.
    Ms. Brown. Thank you.
    Mr. Duncan?
    Mr. Duncan. Since this is a joint hearing, I want to go 
first to Mr. Shuster for questions.
    Mr. Shuster. Thank you, Mr. Duncan, and thank you 
Chairwoman Brown. Because we have a time schedule, I am just 
going to ask one question, but I would like to submit several 
other questions to the panelists to get their responses.
    Mr. Millar, your frustration came through, and you started 
to talk about and didn't have time. My question is concerning 
the grant programs at DHS, can you elaborate on some of the 
frustrations you have had with dealing with DHS in getting 
these grants?
    Mr. Millar. Yes, well, first there is knowing what their 
policy is and they change it every year, so it starts at that 
very basic level.
    Second, it is the structure that they use. Once the 
Congress sets some money for this purpose, then DHS puts its 
spin on it. Then it sends direction to each of the 50 States to 
the security offices there. Then from there, it goes down to a 
regional level. Then our transit systems have to participate in 
a competition at the regional level. Then it goes back up the 
chain. If there is something that gets back up that they don't 
like, it goes back down the chain. Six months goes by. Twelve 
months goes by. Eighteen months goes by, the money that you 
thought was being invested in security to improve things for 
the American public doesn't happen. So it is a very frustrating 
thing for our members.
    I have a quote. I did a little survey work, knowing I was 
coming here. I had my staff call our members. Let me just read 
you a couple quotes from a couple of transit systems this week: 
For the sake of five to six million dollars, we go through an 
incredible bureaucratic process that is unlike any other 
program, that from one of our major systems that has high 
quality staff people. They know what they are doing, and this 
is their assessment of what it is. I could go on and on and on 
with quotes from many other people.
    It is not a good system, sir.
    Mr. Shuster. Is that through TSA or DHS.
    Mr. Millar. This comes through DHS. It is the Office of 
Grants and Training, I believe is what it is called this week.
    Mr. Shuster. Thank you.
    I yield back.
    Ms. Brown. Before I ask my first question, let me just say 
that I have asked my Jacksonville Transit Authority Director, 
Michael Blaylock, to join us today, and he is here. Welcome, 
Mike.
    Mr. Weiderhold, Amtrak?
    Mr. Weiderhold. You can just say Amtrak. That is fine.
    [Laughter.]
    Ms. Brown. Okay, in a conversation the other day in the 
hearing, you mentioned that DHS and DOT have done little to 
help Amtrak improve security. You stated that Amtrak is not 
even on the DHS radar screen. What has been done and what are 
some of your recommendations?
    Mr. Weiderhold. Well, I think I may overspoken a little bit 
there. Clearly, we are on the DHS radar screen, and we talk to 
DHS. In fact, our new Chief Risk Officer is a former high 
ranking DHS infrastructure protection person. We are certainly 
glad to have him on staff.
    I testified earlier that Amtrak has only received $22 
million over the last 3 years, and Amtrak also committed a lot 
of its own monies to doing things around safety and security, 
but I think a lot more could be done. I think we are getting 
smarter about how we need to spend the money that is out there. 
We would like to see kind of a firmer, stronger handshake 
between DHS and DOT and be a party to that handshake.
    Ms. Brown. Okay, the next question is very important. The 
AAR have opposed limiting freight railroad liability for 
accidents involving hazardous material. I understand that under 
current law, Amtrak is liable for all train accidents even if 
the accidents were due to the freight railroads' negligence. 
Not counting grade crossing accidents, would you say that most 
accidents involving Amtrak are the fault of the freight 
railroads and, if so, what impact has that had on Amtrak?
    Mr. Weiderhold. I am not an expert in this area, but I have 
been with the company for 30 years, so I think I am qualified 
to answer the question. Excluding the rail grade crossings, I 
would say that absolutely what we call the rail equipment 
accidents that involve our trains are generally the fault of 
wide gauge-narrow gauge doing things associated with the track.
    Ms. Brown. In your opinion, how much progress has the U.S. 
made on rail and transit security since the Madrid bombing? I 
went on that trip to London, and it seems as if in London, the 
station is secure as opposed to when you go in the station.
    Mr. Weiderhold. The short answer is not nearly enough has 
been done. I can tell you the standard I use when I go to 
various properties that are out there. I use New York as my 
gold standard. New York has what we call in the vernacular, a 
game face. They get it. They feel the threat. They have made a 
commitment to it. The city has. The State has. The carriers 
have. So that is my standard.
    I will go to look at Washington or Los Angeles or Seattle 
or any other major urban station that we have, and I wish they 
were all as ready as New York is.
    Ms. Brown. GAO, you noted a conflict between FRA and TSA 
regulations. It seems to me that DOT and DHS needs to 
coordinate better and that the future legislation should 
recognize the need for the agencies to coordinate on these 
initiatives. Can you expand on that?
    Mr. Rabkin. They have signed a memo of understanding 
between the two departments and then there have been two 
annexes signed between FTA and DHS and between FRA and DHS. The 
question is whether they are actually carrying out what they 
have agreed to and whether what they have agreed to goes far 
enough to accomplish the mission that Congress expects of all 
those agencies. Those are questions that we plan to be asking 
this year as we do our work on both freight rail and passenger 
rail, and we look to informing the Subcommittees of our results 
in the next year or two.
    Ms. Brown. Mr. Siano, can you explain what type of security 
training your workers are now getting and what improvements do 
you think need to be made?
    Mr. Siano. Well, I guess that is pretty simple. The 
training that we are getting now is practically nil, means 
nothing, that I am aware of on any type of level. I mean we 
might be getting some very small amount of training about 
identifying people as they board on the buses or into any 
property that we have, but the security guards are not there 
for property entrance. There is very little of anything that is 
locked up.
    They do, my understanding is throughout the industry, they 
do lock up at a certain time at night, all doors, and you have 
to go through probably one entrance and one exit at night for 
employees leaving and coming that time of night. But during the 
day, you have got to understand, bus garages, for the most part 
in the summer time, in warm weather, all the doors and bay 
doors are open to get somewhat of cross breeze. So that is an 
open invitation to anybody to walk through.
    We have other situations where our bus cleaners because at 
night the bus has to be cleaned inside and out, and we have a 
tremendous amount of people sleeping in buses. They have no 
place to go. So what they do is they wander into a bus garage, 
and they fall asleep. They intend to fall asleep. You know we 
got to roust them up, and sometimes it is not a pretty 
situation because some of these people, who are very ill, 
protect themselves with any weapon that they have on them, 
mostly knives. And so, we are getting harassed.
    The notion that these garages throughout the Country are 
completely secured, let alone during the day, at night, they 
are not even secured. So we have a tremendous amount of break-
ins. We have a tremendous amount of entry by strangers, and 
obviously we don't know what for. They could be terrorists. We 
don't know. We haven't been hit rather big on that situation, 
but we do have it on occasions.
    It is a tremendous burden on us to be careful of people 
wandering on properties. We are charged with that 
responsibility, and it is not part of our job description, and 
it should not be.
    Ms. Brown. Thank you.
    Mr. Duncan.
    Mr. Duncan. Well, thank you, Madam Chairwoman.
    I thought Mr. Millar made a good point when he talked about 
the fact that we have so many billions more that are taking 
rail, bus and public transit than on the airplanes. I think the 
staff tells me 9.6 billion passengers a year on public transit, 
and that compares to about 700 million on the airplanes. 
Really, we are going ridiculously overboard. I was on the 
Aviation Security Conference Committee, but we are going 
ridiculously overboard at the airports, screening passengers, 
confiscating shaving cream and shampoo and an occasional 
pocketknife.
    But I do recognize that more needs to be done on this 
particular type of security we are dealing with here today. I 
also realize that every member is going to say that we need to 
do more and more and more in regard to security so they won't 
get in trouble if something bad happens, but at some point, we 
need to recognize that you are several thousand times more 
likely to be killed in a car wreck or even many, many times 
more likely to be struck by lightening than you are to be 
killed by a terrorist.
    I would like to read a quote that was testified or that was 
said at a Senate committee a few months ago by a witness. He 
said, ``We should not let an over-exaggerated threat of 
terrorism drive us crazy, into bankruptcy, trying to defend 
against every conceivable threat. We do have limits, and we do 
have choices to make. We don't want to break the very systems 
we are trying to protect. We don't want to destroy our way of 
life trying to save it. We don't want to undercut our economy 
trying to protect our economy, and we don't want to destroy our 
civil liberties and our freedoms in order to make ourselves 
safer.''
    That was a quote from Secretary Chertoff, the Secretary of 
Homeland Security.
    What I am saying is this, we just need to look very 
carefully, as the Wall Street Journal editorial said that I 
quoted in my opening statement. We need to look very carefully 
at any request for security. We don't need to just 
automatically approve anything that has the word, security, 
attached to it. We have got to make sure we are getting some 
bang for our buck and that what we are approving is effective 
and especially cost-effective.
    Now, going from that, I have several questions. I am not 
going to have time to ask them all but maybe in a second round.
    Mr. Rabkin, you traveled, you and your people traveled 
apparently to several other countries, studying their security, 
their rail and bus security programs. What did you find in some 
of these other countries that was the most effective or 
impressive to you or your staff?
    Mr. Rabkin. First of all is the same frustration and 
limitations that we face in this Country: that you can't 
protect everything and that they had to make hard choices about 
what they invested in. We found a lot of the same practices and 
principles that were talked about today in terms of public 
awareness, intrusion detection, closed circuit TVs, the 
redesign of stations and infrastructure, which of course is, 
when you talking about building new, then that makes sense. If 
you are talking about retrofitting, it becomes very costly.
    One of the things that they do that we don't do here, there 
is a little more covert testing to ensure that the systems are 
working. They have a little more central focus on evolving 
technologies, and the governments there will do the testing and 
share the results of the testing of what technologies work well 
with the companies that need to use them. There are a couple of 
things like that that we have reported on.
    Mr. Duncan. All right, thank you.
    Mr. Millar, you gave one quote a few minutes ago from one 
of your members. Do you have any specific examples of problems 
that some of your companies or your people have run into in 
applying for these grants through the Homeland Security 
Department?
    Secondly, you have testified there is a $6 billion need 
there. Would you tell us how did you arrive at that? How did 
you arrive at that figure or is there some independent group 
that analyzed that and came up with that figure?
    Mr. Millar. With regard to your first question, our members 
tell us that the problems start first with understanding what 
the policy is going to be for that particular year.
    The second problem we hear is that since it is passed 
through the States, you have varying degrees of interest. 
Certainly, in a State like New York, there tends to be a higher 
degree of interest than there might be in a State that has not 
had a terrorist attack in it. At that State level, there is 
very little understanding usually of what public transit is 
about and what needs to be done.
    There are arbitrary limits put on how the money can be 
spent. Congress didn't necessarily put limits on it, but limits 
get put. So for example, paying certain kinds of operating 
costs, which as Mr. Siano said is important if we are going to 
pay to keep buses on the street while we are training 
employees. Transit is not like a product that you can put on 
the shelf and inventory. The bus that is to be there at 8:00 
a.m. has to be there with a properly trained driver there, 
those kinds of things.
    Then this long process of getting an answer to a question, 
because you go through several different layers, we all know 
the old game of telephone where you speak in one person's ear 
and then the next person and the next person, and you get a 
different story at the end.
    Sometimes, DHS on a couple of occasions hasn't released the 
money that Congress gave it until the very last day of the 
year, so you miss many, many months, and the list goes on and 
on. We would be pleased to provide specific examples.
    With regard to the oft quoted number by me and others of $6 
billion, that is a number that we developed based on a detailed 
survey that we did of our members in 2003, and it was talking 
with the members. By that point, they had two years of post-9/
11 experience. We had learned some of these lessons from around 
the world that you just spoke of, and we had done assessments. 
The FTA, and that point, had done almost three dozen security 
assessments of transit systems. So we were able to piece 
together all that information. That is our best estimate.
    We have offered to the Department of Homeland Security who 
has frequently criticized our estimate, why don't we work 
together. Why don't we jointly develop a way of going out? 
Maybe the $6 billion number is right. Maybe it is $10 billion. 
Maybe it is less $6 billion. Let us work together. To date, we 
are still waiting for them to take us up on that offer.
    I wish I could give you more detail, but that is the best 
number that anybody has that we have been able to find.
    Mr. Duncan. All right, thank you very much.
    I have questions for the other members of the panel, but in 
fairness I am going to yield back at this point. I will ask 
later.
    Mr. DeFazio. [Presiding] I thank the gentleman.
    Mr. Cummings?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I just have one question, and this is to Mr. Rabkin. The 
President has stated in an executive order that Federal, State 
and local officials and the private sector must share 
responsibilities for surface transportation security. Tell me, 
what is the appropriate role for the Federal Government in 
setting standards that State and local officials and the 
private sector should meet and are the State and local 
officials truly prepared to be full partners in ensuring 
security on the transit and rail systems?
    Mr. Rabkin. Mr. Cummings, I don't have an answer to the 
second part of your question about the preparedness.
    We plan to do more work in both the passenger and freight 
rail areas, and as part of those efforts, we will be 
interacting with the operators and with State and local 
government officials and learning more about it. I don't know 
if anybody is ever prepared to do everything that is needed. I 
think part of the effort here is to get them to that level. I 
think I will just leave it at that.
    Mr. Cummings. But wait a minute now. Do you see the Federal 
Government has having a role in setting standards? I didn't 
hear your answer to that.
    Mr. Rabkin. Yes, sir.
    Mr. Cummings. Maybe I missed it.
    Mr. Rabkin. No. You are right, I didn't answer that first 
part.
    Yes, the Federal Government does have a role in setting 
standards, and it shouldn't be a unilateral role. They need to 
work as both the Congress and the President have instructed DHS 
to work_with the other departments, with State and local 
governments, with operators, with other stakeholders to come up 
with standards that would be effective and are achievable.
    Mr. Cummings. I see.
    I am sorry. Did you want to say something? You look like 
you are ready to jump over the table. I want to make sure.
    Mr. Millar. Standards is a very important issue. We are a 
designated standards setting organization. We have offered to 
the Department of Homeland Security, let us work together to 
develop standards. Apropos Mr. Duncan's question, we want to 
make sure that transit systems know the right things to do, 
that they don't do too much of it or that they don't do enough. 
We think a standards program which we have sought to have 
funded for several years now and which has not been funded. We 
have funded a piece of it with our own money because we think 
it is that important, but we think it is a partnership of the 
Government and the industry working together to set standards, 
and we would be very anxious to participate in such a 
partnership.
    Mr. Cummings. You have offered to do that?
    Mr. Millar. Yes, sir, we have on many occasions.
    Mr. Cummings. And you have been?
    Mr. Millar. Well, to be honest about it, at the lower 
levels, people see it, and they think it is a good idea, but 
when it goes up the chain in DHS, it has never been approved. 
It has never been funded.
    Mr. Cummings. It seems to me at some point we have got to 
move off the dime and make things happen. Chairman Brown, I 
have heard her talk about this, how the American people want us 
to solve their problems and not just be talking around each 
other. Consistent with that, I hope that we can begin to move 
in that direction so that 10 years from now, we are not sitting 
here, having this same discussion after many people suffered.
    I think, as I have said on many occasions, we have one life 
to live. This is no dress rehearsal. This is life.
    And so, I think we need to move on that, and I think it 
would be good if the parties would sit down and make an honest 
and straightforward effort to try to get there and that perhaps 
this Congress should set some timetables for you all to 
accomplish that because we don't know how long we are going to 
be here. It is our job to make a difference. If we are not 
going to make a difference, we might as well not be here.
    Considering the fact that there are other members and we 
will want to move on to the second panel, I yield back.
    Mr. DeFazio. I thank the gentleman.
    Representative Coble?
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Duncan examined Mr. Rabkin along the same lines I was 
going to pursue, so I won't repeat that.
    Mr. Weiderhold, I am told that Amtrak does not control the 
commercial and retail spaces at Union Station. Has this had a 
negative impact on Amtrak's ability to control security, 
station security?
    Mr. Weiderhold. Let me just explain that just a little bit. 
I think there is a lot of confusion about who owns Union 
Station. Union Station proper, what we call from the gate area 
north up the railroad, is owned by Amtrak. The main hall, what 
most of you know as Union Station, is owned by the Union 
Station Redevelopment Corporation which is DOT, Amtrak and the 
District of Columbia. They, in turn, contract with Union 
Station venturers that hire a property manager that leases the 
space to the retail operators.
    It is complex. It is a problem that we are trying to 
address because up until about six months ago, those players 
were not fully engaged in our security programs, and we have 
since engaged them in those programs. So to answer your 
questions, yes, we have engaged those folks, and yes, it has 
been difficult when you have properties that have multiple 
owners and multiple players.
    Mr. Coble. But you see improvement?
    Mr. Weiderhold. Oh, absolutely. We have established at 
Union Station a concept that we call the Station Action Team 
that basically brings all the stakeholders in. We meet monthly. 
We go over security issues, safety issues. We have identified 
and uncovered some gaps that exist at Union Station, and I 
would love to talk to you about it more, but we are making some 
headway.
    Mr. Coble. I would be glad to.
    Mr. Weiderhold, let me put another question to you. What 
security precautions does Amtrak take at the ticket counter? 
That is to say do ticket agents have access to a no-fly list, 
for example? Do they check ID and inspect baggage?
    Mr. Weiderhold. ID is checked primarily to match a name to 
a credit card. It is done for financial reasons and not really 
for security reasons. In answer to your question with respect 
to the watch list, no, absolutely not. There are no Amtrak 
passengers that are matched against the watch list.
    Mr. Coble. Baggage is not inspected?
    Mr. Weiderhold. Baggage is not inspected, sir. On occasion, 
if we have a canine team present, they may make a sweep, but 
for the most part the baggage is not inspected.
    Mr. Coble. Mr. Chair, I have other questions, but in the 
interest of time, I yield back.
    Mr. DeFazio. I thank the gentleman.
    Representative Carney?
    Mr. Carney. Mr. Millar and Mr. Weiderhold, I appreciate 
your both coming for the Homeland Security Committee and the T 
and I Committee on back to back days, not a fate I would wish 
on anyone frankly.
    I hoped to ask you this question yesterday but didn't have 
the opportunity. TSA continues to emphasize the importance of 
carriers identifying and reporting security risks to Homeland 
Security Officials. Has your industry promoted any 
whistleblower security or protections so that they can report 
these concerns without fear of retaliation or retribution from 
employers?
    Mr. Millar. The majority of our employees are public 
employees who are covered by whistleblower. While we have not 
specifically spoken to our members about whether they think 
more needs to be done in that area, it is a common and normal 
part of our practice.
    Mr. Weiderhold. Amtrak employees are not Federal employees 
so they are not covered by the general Whistleblower Protection 
Act. They are, however, covered by the Railroad Safety Act. My 
office does investigations with respect to violations for 
railroad accident reporting, and there are also some analogies 
in the Inspector General Act that has authority over Amtrak. So 
we are familiar with whistleblower protection, and in fact my 
office is charged with enforcing that on our railroad.
    Mr. Carney. All right, thank you.
    I yield back, sir.
    Mr. DeFazio. Representative Boustany?
    Mr. Boustany. Thank you, Mr. Chairman.
    Mr. Rabkin, thanks for your report, and I read it. I was 
listening very intently to your verbal testimony, and I want to 
take a few quotes, one being you said the Country cannot 
sustain current fiscal policy. The second one was resources are 
limited. The third quote is there is no national strategy.
    As I read your report, I am very, very concerned about the 
interagency cooperation between the Department of 
Transportation and the Department of Homeland Security. 
Certainly, you have highlighted what has happened with the 
memorandum of understanding, and certainly those represent a 
first step. But in looking at some of the other things we have 
asked for statutorily, we have asked for certain plans to be 
presented to this Committee, and as of March 2nd, 2007, TSA has 
not issued a transportation-specific sector plan and there are 
others highlighted in your report.
    There is a recurrent theme here. The agencies are very good 
at policy but very poor at implementation. As we look at moving 
legislatively, what should be our next steps in your opinion?
    Mr. Rabkin. There have been a couple of references to 
disappointments with the Department of Homeland Security and 
following through on directives that both the Congress and the 
President have given them, certainly in terms of meeting 
deadlines and also in terms of substantively coming up with 
strategies and plans. Holding them accountable by, first of 
all, ensuring that their activities are more transparent, that 
more of this information is shared with the committees and 
their staffs and holding oversight hearings on them to get them 
to answer these questions is probably the best way to do it.
    In our experience, in the end, what it comes down to is 
they listen to the power of the purse, and if you tie 
appropriations to their reporting or producing, it seems to get 
their attention and their track record is a little better at 
that.
    Mr. Boustany. I thank you because I share the same concerns 
that my colleague, Mr. Duncan, also expressed, and that is we 
want to take care of security, but we want to do it wisely. To 
continue to just throw money at a situation where we are not 
getting results is really not good policy.
    As we dig into this, you can bring department heads, but 
again I guess the power of the purse is the one real stick in 
this process.
    Mr. Rabkin. The appropriations committees have appropriated 
funds to DHS to carry out their functions and then withheld 
part of that until they produced plans of how they are going to 
spend the money, both in that year or over a longer term as 
part of a broader strategy. That has at least gotten the 
department's attention and has at least made them more 
responsive in laying out more specific plans.
    One of our frustrations with them, we put them on our high 
risk list of Federal programs that were more prone to fraud, 
waste, abuse and mismanagement even before they opened their 
doors, and they remain on the list because of problems in 
transforming the disparate agencies that were pulled together 
into an operating department. They have been focusing on their 
mission work. Their management activities have evidently been 
second fiddle. We think it is about time. These things do take 
time, these kinds of major transformations. But it is time for 
them to start producing results in terms of how they are 
managing the department and how they are responding to 
Congress, et cetera.
    Mr. Boustany. Thank you.
    Do any of you other gentlemen want to comment on this?
    Mr. Millar. I will just say we completely agree on that 
point.
    Mr. Boustany. Okay, thank you.
    I yield back.
    Mr. DeFazio. I thank the gentleman.
    I had some questions, but I am going to forego at this 
point because I do want to get to the next panel. I think it 
would not be fair to ask them to hang around while we listen to 
the King of Jordan, however long he might talk.
    Thank you all for your testimony. The members certainly can 
submit questions for the record or contact you folks 
individually to get answers to their questions. Thank you 
again.
    I would call the next panel, and let us move along as 
quickly as we can so we can hopefully hear from all of them 
before we become pumpkins.
    Mr. Hamberger, Association of American Railroads; Mr. 
Tolman, Brotherhood of Locomotive Engineers and Trainmen; and 
Mr. Durbin, American Chemistry Council.
    Just start talking, Ed.

   TESTIMONY OF ED HAMBERGER, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, ASSOCIATION OF AMERICAN RAILROADS; JOHN P. TOLMAN, 
    VICE PRESIDENT AND NATIONAL LEGISLATIVE REPRESENTATIVE, 
BROTHERHOOD OF LOCOMOTIVE ENGINEERS AND TRAINMEN, A DIVISION OF 
THE TEAMSTERS RAIL CONFERENCE; MARTY DURBIN, MANAGING DIRECTOR 
         OF FEDERAL AFFAIRS, AMERICAN CHEMISTRY COUNCIL

    Mr. Hamberger. Mr. Chairman, thank you very much for the 
opportunity to be here to discuss freight railroad security in 
general and the Rail and Public Transportation Security Act in 
2007, in particular.
    I will skip with the background I was going to give on all 
the activity and actions the industry has taken since 9/11. I 
believe the Committee is fully aware of that.
    The written testimony which I submitted was due at a point 
in time when we had not had an opportunity to really review 
H.R. 1269, so I would ask permission to submit more detailed 
comments on the legislation for the record.
    Having said that, I would like to make three points on the 
bill. First, I want to thank Chairman Oberstar and Subcommittee 
Chairs Brown and DeFazio for recognizing the unique 
characteristics of the Transportation Technology Center (TTCI) 
in Pueblo, Colorado. We appreciate your putting TTCI in as a 
member of the National Domestic Preparedness Consortium (NDPC). 
Today, a facility specifically targeted at emergency response 
training for freight and passenger railroad environments is 
notably absent from the NDPC, and this corrects that oversight. 
Similarly, we support the provision calling on DHS to establish 
a research and development program for projects related to 
railroad security. I have specific recommendations in my 
written statement.
    Secondly, we recognize the importance of whistleblower 
protection. I am sorry Mr. Carney had to leave. But the fact is 
that railroad employees already receive whistleblower 
protection under the Federal Railroad Safety Act. Creating a 
new separate system under the Department of Labor seems to be 
duplicative and potentially confusing since many of the issues 
may surround both safety and security. We would suggest that 
perhaps a better approach would be to expand, if you feel it 
necessary, current whistleblowing provisions in the Federal 
Railroad Safety Act to encompass security issues so that there 
is one system and not two parallel systems in existence out 
there.
    Third, the issue of employee training. We do take that very 
seriously. Working with the National Transit Institute at 
Rutgers University, we have developed an interactive uniform 
security awareness curriculum for freight railroad employees. 
We submitted this training regimen to both DHS and DOT in 2006 
and have received very positive responses from them. Recently, 
TSA inspectors surveyed 2,600 railroad employees and found that 
80 percent have a medium or high level of security training. 
All front line Class I railroad employees will have completed 
this security training by the end of this year, and we will 
have written confirmation of that.
    As I look at your legislation, I would just draw attention 
that some of the elements that are in the training requirements 
might be more appropriate for transit workers than freight rail 
workers. Training on the evacuation of passengers from tunnels 
would be one example.
    A second example concerns the requirement of our railroad 
employees to investigate the seriousness of the matter at hand. 
We believe that the appropriate security training can be stated 
in three Rs: recognize that something is not right; record what 
you can, for example, a license plate number; and then report 
to the appropriate authorities_in our case, the railroad 
police, local responders or the National Terrorism Taskforce of 
the FBI. We just think we need to make sure that we are not 
training our employees to get into dangerous situations.
    The last point I would make is the following. It is very 
appropriate that I am here with a representative of labor and a 
representative of the American Chemistry Council because we 
have a long history of working together with both these 
organizations on safety and security matters. Thank you for the 
opportunity to be here today.
    Mr. DeFazio. Thanks for that succinct presentation.
    Mr. Tolman.
    Mr. Tolman. Thank you and good morning, Chairman DeFazio, 
Chairwoman Brown, Ranking Members Duncan and Shuster, members 
of the Subcommittees.
    My name is John Tolman, and I am a Vice President of the 
Brotherhood of Locomotive Engineers and serve on the policy 
committee for the Teamsters Rail Conference. Thank you for 
inviting me here today to testify on the issue of rail 
security. On behalf of the 70,000 members of the Teamsters Rail 
Conference, I would like to thank you for the interest in this 
subject and applaud both the Homeland Security Committee and 
the T and I Committee for introducing rail legislation.
    We look forward to working with you on, I guess, fine 
tuning that. In lack of time, I guess I am not going to comment 
specifically on the pieces of legislation.
    As you know, the issue of rail security is a vital concern 
for all rail workers including the Teamsters Rail Conference, 
members represented by the BLET and the Brotherhood of 
Maintenance Away Workers. The Teamsters Rail Conference is 
dedicated to improving rail security and safety in America in 
order to adequately protect rail workers and communities they 
serve. Each and every day, we are on the front lines of our 
Nation's transportation system and see the woeful lack of 
security on our railroads.
    As you know, there are many components that make of the 
issue of rail security. Today, I would like to discuss four of 
these issues: training, whistleblower protection, rerouting of 
hazardous material and Transportation Worker Identification 
Credential program.
    Locomotive engineers and trainmen and track maintenance 
workers are the true first responders to rail emergencies, the 
eyes and ears of the industry. Worker training is one area of 
grave concern for rail workers because rail security measures 
have been given very little attention that they deserve. Even 
since 9/11 and the attacks of rail and transit systems 
overseas, the security training given the rail employees has 
been minimal and usually comprised of nothing more than a 
printed brochure and a 10 minute videotape. Moreover, 80 
percent of the members who participated in the rail security 
safety survey said that they have not received any additional 
security training since 9/11.
    Therefore, we respectfully request that Congress pass 
legislation that will compel rail corporations to train their 
employees properly on proper safety evacuation procedures, the 
use of appropriate emergency escape apparatus, the special 
handling of hazardous materials and roles and responsibilities 
of rail employees within the railroad security plans, including 
an understanding of the plans' threat level index and 
notification to employees each time the threat level is 
changed.
    Unfortunately, the same employees who are given so little 
training by the railroads are still being intimidated and 
harassed when they report security problems. Strong 
whistleblower protections must be a component of rail security 
legislation. Railroad workers should not and cannot be subject 
to dismissal when they provide security threat information to 
the Government.
    Mandatory rerouting of hazardous materials for safety 
reasons would further jeopardize the safety of these same 
employees and the communities through which we travel. 
Mandatory rerouting sounds like a good idea in theory, but it 
is not a practical solution except on very rare occasions.
    Much of the infrastructure in the industry is at or near 
capacity, and there are both labor and equipment shortages in 
many areas. Furthermore, given the nature of the train 
operation and FRA requirements, locomotive engineers and 
conductors and track inspectors cannot simply be shifted from 
route to route the way a truck can be diverted from one 
interstate highway to another. Qualification requirements are 
territory-specific and exacting. Simply put, there is not 
enough slack in the system to reroute hazardous material on a 
large scale without the system experiencing significant delays 
and disruptions.
    Similarly, the Rail Conference believes that the 
Transportation Worker Identification Credential program is a 
mixed blessing. The Conference understands the need for 
heightened security against terrorist attacks that target 
American rail facilities and believes that a limited, properly 
designed safeguard TWIC program as one element of a 
comprehensive integrated anti-terrorist rail security system 
could help and protect our railroads from attack. 
Unfortunately, the program established by TSA in conjunction 
with the Coast Guard poses a cure that is worse than the 
illness in some respects.
    The Teamsters Rail Conference looks forward to working with 
the Committee and any questions, I would be glad to answer. 
Thank you.
    Mr. DeFazio. Thank you, Mr. Tolman.
    Mr. Durbin?
    Mr. Durbin. I will also try to be brief here. Again, as Mr. 
Hamberger said, we too are analyzing 1269 right now, and we 
look forward to getting back to the Committee with more 
detailed comments on the bill itself.
    Again, I would just like to echo that we are happy to say 
there has been a long history of close cooperation on safety 
and security between the chemical industry, the labor unions 
and the rail industry.
    But as a representative of the materials that are being 
transported, let me point out that the products that are 
supplied by the chemistry sector, including the hazardous 
chemicals, are essential to virtually every aspect of our 
lives. In fact, more than 96 percent of all manufactured goods 
are directly touched by chemistry, which is one of the reasons 
that DHS recognizes our industry as critical infrastructure. So 
the flawed view that chemicals are an unnecessary risk that 
need to be eliminated is thankfully being rejected.
    Now Congress wisely established a comprehensive national 
regulatory system for hazardous materials transportation 
administered by DOT. The goal of that system is to ensure that 
chemicals and other hazardous materials are delivered safely, 
securely and reliably. The goal is not to prevent their 
movement. That is the appropriate focus. While DHS has been 
given an important role in transportation security, it should 
continue to rely on the unmatched hazmat regulatory experience 
at DOT.
    For ACC members, security was a priority well before the 
events of 9/11. Following the terror attacks, we went even 
further. We didn't wait for Government action but instead 
developed the Responsible Care Security Code which became 
mandatory for our members in 2002 and covers facilities, cyber 
systems and transportation, and our members have already 
invested over $3.5 billion in that effort and certainly will 
continue to do so because we understand the stakes and our 
responsibilities.
    Under the Code, the ACC and its members continue to work 
closely with the rail industry as well as with appropriate 
Government officials to develop more robust security 
operations. Among many other actions, our members efforts have 
included enhancing inspections and increasing surveillance 
along rail lines, and so far the partnership of the railroads 
has been strong and effective. In fact, we work together with 
the railroads on many issues. We share similar views with the 
proposed rulemaking underway at TSA and DOT and have long 
cooperated and invested in training systems and technology. We 
will continue to do. A superb example is the recently announced 
joint venture between Dow Chemical and Union Pacific to improve 
shipment visibility, tank car design and to reduce the rail 
time of hazmat shipments in high threat areas.
    The fact is that we, that is, the chemical industry, the 
railroads and the Government, must continue to work together to 
protect these shipments and ensure their safety and security.
    For ACC members, continuous improvement is part of 
Responsible Care. It is ACC's industry leading program and very 
much a part of the way we do business. Responsible Care 
requires us to look for new ways to enhance safety and 
security, whether the subject is new technology or new 
procedures and protocols. We are working cooperatively with the 
Federal Government, the railroads and tank car manufacturers as 
FRA develops a rulemaking for new rail tank car designs. Inputs 
to that process include industry efforts coordinated through 
the Next Generation of Rail Tank Car project and Government 
initiatives such as research coming from DOT's Volpe Center.
    Emergency response is another critical component of 
hazardous materials transportation safety. I am pleased to say 
that again, this is another area where since the 1980s, we have 
worked with our member companies together with the railroads to 
put together TRANSCAER, a voluntary national outreach effort to 
help communities prepare for and respond to hazardous materials 
incidents.
    In addition, ACC's CHEMTREC program, now in its 36th year, 
provides a successful blueprint for sharing expertise and 
experience with today's emergency responders. Located at our 
headquarters in Arlington, CHEMTREC is recognized by DOT and 
other agencies as a valuable source of information and expert 
counsel regarding hazmat incidents. I am proud to say CHEMTREC 
has been a behind the scenes partner to a variety of Government 
organizations and programs including NASA after the 
unfortunately Columbia Space Shuttle disaster and the U.S. Army 
in support of our troops in Afghanistan.
    As a further improvement to CHEMTREC's capabilities, CSX 
Transportation and CHEMTREC launched a joint program to provide 
even more timely and useful information to emergency 
responders.
    I want to personally invite the members of the Committee to 
tour our CHEMTREC facility in Rosslyn to see how we work with 
local responders and help protect your communities. So I will 
follow up with staff on that.
    We look forward to working closely with the Committee, the 
Congress and Departments of Transportation and Homeland 
Security and other stakeholders to make this happen.
    I will conclude my remarks.
    Mr. DeFazio. Thank you.
    We have about eight minutes left. There is, unfortunately, 
a very strict rule in the House that we can't meet during joint 
sessions, so I will defer to anybody on my side who has an 
urgent question.
    Ms. Brown. Thank you, Mr. Chairman. I will be very brief.
    Mr. Tolman and Mr. Hamberger, and I will give you this in 
writing, but I want an extension on the whistleblowing 
protections. Why is it important, Mr. Hamberger? Whether you 
support it, Mr. Tolman.
    I don't understand. I have talked to many men in the field, 
and they have a concern that if they report what they view as 
security breaches, they will be fired. I would like to hear 
some discussion, maybe briefly and then in writing.
    In addition, Mr. Hamberger, would you also speak, and I 
will give it to you in writing, about security training. There 
is a concern from the people in the field that they have not 
gotten adequate training. You know it came up at our last 
hearing.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlewoman for being so succinct.
    Mr. Shuster?
    Mr. Shuster. Just a quick question to Mr. Hamberger and Mr. 
Tolman on the whistleblower protection, do you see that as 
something that should be at the Labor Department or do you want 
it part of the Rail Safety Act?
    Mr. Hamberger. Well, as I indicated in my dash through my 
opening statement, Mr. Shuster, we believe------
    Mr. Shuster. So fast I missed it.
    Mr. Hamberger. Yes, sir. We believe that it would be more 
logical to have the current Federal rail safety whistleblowing 
system expanded to cover security rather than set up a parallel 
system at the Department of Labor. We are not covered by OSHA. 
We are covered by Federal Railroad Administration. So it just 
seems logical to keep it at the FRA.
    Mr. Shuster. Mr. Tolman?
    Mr. Tolman. Yes, I did read the language in Chairman 
Oberstar's bill, and I think that is exactly where it belongs.
    Mr. Shuster. Thank you very much. I can tell, Mr. Tolman, 
you are not an attorney, and Mr. Hamberger is an attorney. The 
length of the answer was much different so thank you.
    Mr. Tolman. I am just trying to be brief. He is trying to 
be long.
    Mr. DeFazio. Mr. Duncan?
    Mr. Duncan. Let me just say very quickly, Mr. Hamberger, I 
want to commend you on what your organization has done just 
voluntarily, and I hope that for all the organizations that 
have been testifying here today. Mr. Siano, for instance, 
testified that his members were scared. There is a Federal role 
but also I think as a good union, if their employees are 
scared, they would do some things on their own to help better 
serve their union members. I would say that to all the 
organizations here. There are certain things that you can and 
should be doing on your own.
    We are going to submit our questions for the record.
    Thank you very much.
    Mr. DeFazio. I thank the Ranking Member.
    Anybody else on the Democratic side, quick question?
    Representative Napolitano?
    Ms. Napolitano. Not a question but rather a statement that 
I am hearing a lot of information that I didn't have before, 
and I am certainly aware that things have not been going too 
well in some areas insofar as the rail safety is concerned.
    I am hoping that out of this we will be able to move 
forward, and I hate to call it a mandate but have Homeland 
Security and have the agencies work with the railroads, work 
with the communities to come up with the answers because it 
isn't one individual that needs to impose those requirements 
and regulations on the general public nor on the railroads nor 
on those that really have very little to do with it.
    Thank you, sir.
    Mr. DeFazio. Thank you.
    Mr. Coble?
    Mr. Coble. Mr. Chairman, I will be very brief.
    Mr. Hamberger, I know that AAR has helped developed 
railroad tank cars that are capable of withstanding derailment, 
collisions with highway vehicles and other severe impacts. I 
want to put a hypothetical to you. How would these cars, these 
tank cars react if a projectile did, in fact, strike the tank? 
Would it be a Hollywood style explosion or minor league? I know 
hypotheticals are difficult to answer sometimes.
    Mr. Hamberger. I believe it would depend in the first case, 
of course, on what the projectile was and, secondly, what was 
the angle of the projectile coming in. It is possible, 
depending on the distance and the kind of projectile that it 
would, in fact, not penetrate. But let us be honest, there are 
projectiles out there that clearly would penetrate. If that 
were to occur, this material travels under pressure. It is 
liquid as it travels under pressure. When it released into the 
atmosphere--again, we are talking just those hundred thousand 
carloads of chlorine, anhydrous ammonia and others--it would 
then of course form a gas and plume which is toxic.
    Mr. Coble. I yield back, Mr. Chairman.
    Mr. DeFazio. We have got about one minute left. Any other 
questions?
    Okay, I want to thank the panel. Thank you for being 
succinct and delivering a lot of information.
    Mr. Hamberger. Mr. Chairman, I think that Mr. Tolman would 
join me. The last time we testified here, we were admonished by 
Chairwoman Brown and Mr. Shuster to go back and try to reach an 
agreement at the bargaining table. I am pleased to say that 
last week our organizations announced that they have reached a 
tentative agreement that will be going out for ratification 
over the next period of time. So I would just like to 
acknowledge the input from the Chairwoman and the Ranking 
Member.
    Mr. DeFazio. She is a powerful chairperson. We all 
recognize that.
    Mr. Cummings. Mr. Chairman?
    Mr. DeFazio. Yes.
    Mr. Cummings. When can we get a copy of that agreement, Mr. 
Chairman, do you think? I was just wondering. We hear about 
agreements in all these committees. I would like to see some of 
these agreements.
    Mr. DeFazio. Does the panel have an answer?
    Mr. Tolman. We have not even distributed it to our members 
yet. It is not even put together. But, Congressman, as soon as 
we get it, we will be glad to.
    Mr. Cummings. When do you anticipate that will be? The only 
reason I am asking is because we hear these things in other 
committees all the time, and I would just like to see some of 
this stuff.
    Mr. Tolman. Right. The group that signed the agreement 
represents about 47 percent of rail labor. There is still 
another 53 percent of rail labor that has not signed an 
agreement, but within a week, I will give you a copy of that.
    Mr. Cummings. Thank you very much.
    Mr. DeFazio. Okay, thank you.
    Thank you, Mr. Cummings.
    Again, I thank the panel members for their time and their 
testimony.
    The Committee is now adjourned.
    [Whereupon, at 11:00 a.m., the subcommittees were 
adjourned.]
[GRAPHIC] [TIFF OMITTED] 34784.011

[GRAPHIC] [TIFF OMITTED] 34784.012

[GRAPHIC] [TIFF OMITTED] 34784.013

[GRAPHIC] [TIFF OMITTED] 34784.014

[GRAPHIC] [TIFF OMITTED] 34784.015

[GRAPHIC] [TIFF OMITTED] 34784.016

[GRAPHIC] [TIFF OMITTED] 34784.017

[GRAPHIC] [TIFF OMITTED] 34784.018

[GRAPHIC] [TIFF OMITTED] 34784.019

[GRAPHIC] [TIFF OMITTED] 34784.020

[GRAPHIC] [TIFF OMITTED] 34784.021

[GRAPHIC] [TIFF OMITTED] 34784.022

[GRAPHIC] [TIFF OMITTED] 34784.023

[GRAPHIC] [TIFF OMITTED] 34784.024

[GRAPHIC] [TIFF OMITTED] 34784.025

[GRAPHIC] [TIFF OMITTED] 34784.026

[GRAPHIC] [TIFF OMITTED] 34784.027

[GRAPHIC] [TIFF OMITTED] 34784.028

[GRAPHIC] [TIFF OMITTED] 34784.029

[GRAPHIC] [TIFF OMITTED] 34784.030

[GRAPHIC] [TIFF OMITTED] 34784.031

[GRAPHIC] [TIFF OMITTED] 34784.032

[GRAPHIC] [TIFF OMITTED] 34784.033

[GRAPHIC] [TIFF OMITTED] 34784.034

[GRAPHIC] [TIFF OMITTED] 34784.035

[GRAPHIC] [TIFF OMITTED] 34784.036

[GRAPHIC] [TIFF OMITTED] 34784.037

[GRAPHIC] [TIFF OMITTED] 34784.038

[GRAPHIC] [TIFF OMITTED] 34784.039

[GRAPHIC] [TIFF OMITTED] 34784.040

[GRAPHIC] [TIFF OMITTED] 34784.041

[GRAPHIC] [TIFF OMITTED] 34784.042

[GRAPHIC] [TIFF OMITTED] 34784.043

[GRAPHIC] [TIFF OMITTED] 34784.044

[GRAPHIC] [TIFF OMITTED] 34784.045

[GRAPHIC] [TIFF OMITTED] 34784.046

[GRAPHIC] [TIFF OMITTED] 34784.047

[GRAPHIC] [TIFF OMITTED] 34784.048

[GRAPHIC] [TIFF OMITTED] 34784.049

[GRAPHIC] [TIFF OMITTED] 34784.050

[GRAPHIC] [TIFF OMITTED] 34784.051

[GRAPHIC] [TIFF OMITTED] 34784.052

[GRAPHIC] [TIFF OMITTED] 34784.053

[GRAPHIC] [TIFF OMITTED] 34784.054

[GRAPHIC] [TIFF OMITTED] 34784.055

[GRAPHIC] [TIFF OMITTED] 34784.056

[GRAPHIC] [TIFF OMITTED] 34784.057

[GRAPHIC] [TIFF OMITTED] 34784.058

[GRAPHIC] [TIFF OMITTED] 34784.059

[GRAPHIC] [TIFF OMITTED] 34784.060

[GRAPHIC] [TIFF OMITTED] 34784.061

[GRAPHIC] [TIFF OMITTED] 34784.062

[GRAPHIC] [TIFF OMITTED] 34784.063

[GRAPHIC] [TIFF OMITTED] 34784.064

[GRAPHIC] [TIFF OMITTED] 34784.065

[GRAPHIC] [TIFF OMITTED] 34784.066

[GRAPHIC] [TIFF OMITTED] 34784.067

[GRAPHIC] [TIFF OMITTED] 34784.068

[GRAPHIC] [TIFF OMITTED] 34784.069

[GRAPHIC] [TIFF OMITTED] 34784.070

[GRAPHIC] [TIFF OMITTED] 34784.071

[GRAPHIC] [TIFF OMITTED] 34784.072

[GRAPHIC] [TIFF OMITTED] 34784.073

[GRAPHIC] [TIFF OMITTED] 34784.074

[GRAPHIC] [TIFF OMITTED] 34784.075

[GRAPHIC] [TIFF OMITTED] 34784.076

[GRAPHIC] [TIFF OMITTED] 34784.077

[GRAPHIC] [TIFF OMITTED] 34784.078

[GRAPHIC] [TIFF OMITTED] 34784.079

[GRAPHIC] [TIFF OMITTED] 34784.080

[GRAPHIC] [TIFF OMITTED] 34784.081

[GRAPHIC] [TIFF OMITTED] 34784.082

[GRAPHIC] [TIFF OMITTED] 34784.083

[GRAPHIC] [TIFF OMITTED] 34784.084

[GRAPHIC] [TIFF OMITTED] 34784.085

[GRAPHIC] [TIFF OMITTED] 34784.086

[GRAPHIC] [TIFF OMITTED] 34784.087

[GRAPHIC] [TIFF OMITTED] 34784.088

[GRAPHIC] [TIFF OMITTED] 34784.089

[GRAPHIC] [TIFF OMITTED] 34784.090

[GRAPHIC] [TIFF OMITTED] 34784.091

[GRAPHIC] [TIFF OMITTED] 34784.092

[GRAPHIC] [TIFF OMITTED] 34784.093

[GRAPHIC] [TIFF OMITTED] 34784.094

[GRAPHIC] [TIFF OMITTED] 34784.095

[GRAPHIC] [TIFF OMITTED] 34784.096

[GRAPHIC] [TIFF OMITTED] 34784.097

[GRAPHIC] [TIFF OMITTED] 34784.098

[GRAPHIC] [TIFF OMITTED] 34784.099

[GRAPHIC] [TIFF OMITTED] 34784.100

[GRAPHIC] [TIFF OMITTED] 34784.101

[GRAPHIC] [TIFF OMITTED] 34784.102

[GRAPHIC] [TIFF OMITTED] 34784.103

[GRAPHIC] [TIFF OMITTED] 34784.104

[GRAPHIC] [TIFF OMITTED] 34784.105

[GRAPHIC] [TIFF OMITTED] 34784.106

[GRAPHIC] [TIFF OMITTED] 34784.107

[GRAPHIC] [TIFF OMITTED] 34784.108

[GRAPHIC] [TIFF OMITTED] 34784.109

[GRAPHIC] [TIFF OMITTED] 34784.110

[GRAPHIC] [TIFF OMITTED] 34784.111

[GRAPHIC] [TIFF OMITTED] 34784.112

[GRAPHIC] [TIFF OMITTED] 34784.113

[GRAPHIC] [TIFF OMITTED] 34784.114

[GRAPHIC] [TIFF OMITTED] 34784.115

[GRAPHIC] [TIFF OMITTED] 34784.116

[GRAPHIC] [TIFF OMITTED] 34784.117

[GRAPHIC] [TIFF OMITTED] 34784.118

[GRAPHIC] [TIFF OMITTED] 34784.119

[GRAPHIC] [TIFF OMITTED] 34784.120

[GRAPHIC] [TIFF OMITTED] 34784.121

[GRAPHIC] [TIFF OMITTED] 34784.122

[GRAPHIC] [TIFF OMITTED] 34784.123

[GRAPHIC] [TIFF OMITTED] 34784.124

[GRAPHIC] [TIFF OMITTED] 34784.125

[GRAPHIC] [TIFF OMITTED] 34784.126

[GRAPHIC] [TIFF OMITTED] 34784.127

[GRAPHIC] [TIFF OMITTED] 34784.128

[GRAPHIC] [TIFF OMITTED] 34784.129

[GRAPHIC] [TIFF OMITTED] 34784.130

[GRAPHIC] [TIFF OMITTED] 34784.131

[GRAPHIC] [TIFF OMITTED] 34784.132

[GRAPHIC] [TIFF OMITTED] 34784.133

[GRAPHIC] [TIFF OMITTED] 34784.134

[GRAPHIC] [TIFF OMITTED] 34784.135

[GRAPHIC] [TIFF OMITTED] 34784.136

[GRAPHIC] [TIFF OMITTED] 34784.137

[GRAPHIC] [TIFF OMITTED] 34784.138

[GRAPHIC] [TIFF OMITTED] 34784.139

[GRAPHIC] [TIFF OMITTED] 34784.140

[GRAPHIC] [TIFF OMITTED] 34784.141

[GRAPHIC] [TIFF OMITTED] 34784.142

[GRAPHIC] [TIFF OMITTED] 34784.143

[GRAPHIC] [TIFF OMITTED] 34784.144

[GRAPHIC] [TIFF OMITTED] 34784.145

[GRAPHIC] [TIFF OMITTED] 34784.146

[GRAPHIC] [TIFF OMITTED] 34784.147

[GRAPHIC] [TIFF OMITTED] 34784.148

[GRAPHIC] [TIFF OMITTED] 34784.149

[GRAPHIC] [TIFF OMITTED] 34784.150

                                    

</pre></body></html>
